<html>
<title> - FREEDOM OF RELIGION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                          FREEDOM OF RELIGION

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-483                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TOM UDALL, New Mexico                DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California          GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey     MEL MARTINEZ, Florida


                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)
                          Freedom of Religion


                              INTRODUCTION


    Government harassment, repression, and persecution of 
religious and spiritual adherents has increased during the 
five-year period covered by this report. In 2004, the 
Congressional-Executive Commission on China reported that 
repression of religious belief and practice grew in severity. 
The Communist Party strengthened its campaign against 
organizations it designated as cults, targeting Falun Gong in 
particular, but also unregistered Buddhist and Christian 
groups, among other unregistered communities.\1\ The Commission 
noted a more visible trend in harassment and repression of 
unregistered Protestants for alleged cult involvement starting 
in mid-2006.\2\ The Commission reported an increase in 
harassment against unregistered Catholics starting in 2004 and 
an increase in pressure on registered clerics beginning in 
2005.\3\ The government's crackdown on religious activity in 
the Xinjiang Uighur Autonomous Region has increased in 
intensity since 2001.\4\ New central government legal 
provisions and local measures from the Tibet Autonomous Region 
government intensify an already repressive environment for the 
practice of Tibetan Buddhism.\5\ Daoist and Buddhist 
communities have been subject to ongoing efforts to close 
temples and eliminate religious practices deemed superstitious, 
as well as made subject to tight regulation of temple 
finances.\6\ Members of religious and spiritual communities 
outside the five groups recognized by the government continue 
to operate without legal protections and remain at risk of 
government harassment, abuse, and in some cases, persecution. 
China has remained a ``Country of Particular Concern'' because 
of its restrictions on religion since the U.S. Department of 
State first gave it this designation in 1999.\7\
    The Chinese government's failure to protect religion and 
its imposition of limits on religion violate international 
human rights standards. The Chinese Constitution, laws, and 
regulations guarantee only ``freedom of religious belief'' 
(zongjiao xinyang ziyou), but they do not guarantee ``freedom 
of religion.'' \8\ As defined by international human rights 
standards, ``freedom of religion'' encompasses not only the 
freedom to hold beliefs but also the freedom to manifest 
them.\9\ Chinese laws and regulations protect only ``normal 
religious activities.'' They do not define this term in a 
manner to provide citizens with meaningful protection for all 
aspects of religious practice.\10\ Religious communities must 
register with the government by affiliating with one of the 
five recognized religions and they must receive government 
approval to establish sites of worship.\11\ The state tightly 
regulates the publication of religious texts and forbids 
individuals from printing religious materials.\12\ State-
controlled religious associations hinder citizens' interaction 
with foreign co-religionists, including their ability to follow 
foreign religious leaders.\13\ The government imposes 
additional restrictions on children's freedom of religion.\14\ 
Chinese citizens who practice their faith outside of officially 
sanctioned parameters risk harassment, detention, and other 
abuses. In 2006, a top religious official in China claimed that 
no religious adherents were punished because of their faith, 
but the Chinese government continues to use a variety of 
methods within and outside its legal system--including 
selective application of criminal penalties--to punish and 
imprison citizens who practice religion in a manner authorities 
deem illegitimate.\15\
    As recognized in international human rights standards,\16\ 
including those in treaties China has signed or ratified,\17\ 
freedom of religion ``is far-reaching and profound.'' \18\ It 
includes the freedom to manifest one's beliefs alone or in 
community with others; the freedom to believe in and practice 
the religion of one's choice, without discrimination; the 
freedom to build places of worship; the freedom to print and 
distribute religious texts; the freedom to recognize religious 
leaders regardless of those leaders' nationality; and the 
freedom of children to practice a religion.\19\
    The Chinese government has failed to guarantee these 
freedoms to its citizens both in law and in practice.
    Party leaders manipulate religion for political ends. Like 
his predecessor, President and Party General Secretary Hu 
Jintao has responded to an increase in the number of religious 
followers through the use of legal initiatives to cloak 
campaigns that tighten control over religious communities.\20\ 
Despite official claims in 2004 that the Regulation on 
Religious Affairs adopted that year represented a ``paradigm 
shift'' in limiting state intervention in citizens' religious 
practice,\21\ it codified at the national level ongoing 
restrictions over officially recognized religious communities 
and discriminatory barriers against other groups. In the area 
of religion, the Party has used legal means as a tool for 
exerting tight control over all aspects of citizens' religious 
practice. Beyond overt measures of control, internal public 
security handbooks call for undercover teams to monitor the 
activities of religious communities.\22\ In an essay on 
maintaining stability in western China, one public security 
analyst called for security officials to gather information on 
religious communities by cultivating ``secret . . . `friends' 
'' from within such communities.\23\
    In recent years, top officials publicly have stated that 
religion may play a positive role in society,\24\ but have 
maneuvered this sentiment to meet Party goals. In its campaign 
to promote a ``harmonious society,'' the Party has emphasized 
``bringing into play the positive role of religion'' through 
greater control of internal religious doctrine.\25\ In July 
2006, Ye Xiaowen, head of the State Administration for 
Religious Affairs, said the government would 
direct religious leaders to provide correct interpretations of 
religious tenets to ``convey positive and beneficial contents 
to worshippers and direct them to practice faiths rightly.'' 
\26\ The announcement builds on earlier policies to manipulate 
doctrine to suit Party policy. For example, the national 
Islamic Association has continued a program to compile sermons 
that reflect the ``correct and authoritative'' view of 
religious doctrine in line with Party policy, making imams' 
confirmation contingent on knowledge of the sermons. The 
official Protestant church continues to promote ``theological 
construction,'' a guiding ideology designed to minimize aspects 
of Christianity deemed incompatible with socialism.\27\ The 
government and Party continue to propagate atheism among 
Chinese citizens. In an August 2006 article, Ye Xiaowen called 
for strengthening propaganda and education on atheism.\28\
    Despite controls over religion, unofficial estimates 
indicate that the number of religious and spiritual adherents 
in China continues to grow. In 2007, Chinese media reported on 
a poll by Chinese scholars that found China has approximately 
300 million religious adherents, a figure three times as high 
as official figures.\29\ The growth of religion in Chinese 
society presents potential challenges to government authority, 
and government concerns over the rise of religion intersect 
with broader apprehensions about perceived social instability 
and ethnic unrest. A summary of religious work issued in 2005 
listed ``stability'' as the ``number one responsibility.'' \30\ 
As long as the government views religion as a potential 
flashpoint for conflict or challenge to Party authority, it is 
unlikely to ease restrictions on religious communities. Broader 
political liberalizations that address how China's own 
restrictive policies exacerbate instability, however, could 
bring improvements in the area of religious freedom, but a 
review of events from the past five years indicates a trend in 
the opposite direction.

                        Legislative Developments

    The central government has taken more steps to codify state 
and Party policy on religion in recent years, particularly 
through the 2004 national Regulation on Religious Affairs (RRA) 
and subsequent provincial regulations. Though the regulations 
guarantee some legal protections to registered religious 
communities, they also condition many religious activities on 
government oversight and approval. Codification of government 
procedures lends more transparency and predictability about 
government actions, but as legal controls over the internal 
activities of religious communities, the regulations reflect 
rule by law rather than rule of law.
    Implementation of the RRA has been uneven, resulting in a 
confusing legal terrain for citizens who aim to understand the 
applicability of legal protections and restrictions imposed by 
the regulation. Though the State Administration for Religious 
Affairs (SARA) and local governments have reported training 
local officials in the RRA,\31\ the complete scope of the 
training and indicators for measuring its progress are unclear. 
The central government has not issued general implementing 
guidelines, but has promulgated a limited number of legal 
measures that expand on specific provisions within the RRA. The 
new measures clarify some ambiguous provisions in the RRA, but 
generally articulate more rigid controls.\32\ Although SARA 
also has promoted a handbook that provides a more detailed 
explanation of each article of the RRA, the book does not 
appear to be widely distributed in training classes.\33\
    The national government has not publicized a clear plan of 
action for ensuring local regulations on religion are 
consistent with national requirements, and inconsistencies 
among regulations persist. Most of the provincial-level 
regulations issued after the RRA entered into force promote 
consistency with the RRA by aligning many key provisions to 
national requirements, but at least one province initially 
retained provisions that conflicted with those in the RRA.\34\ 
Other provinces have yet to amend their regulations, leaving 
intact provisions that conflict with the RRA and, in some 
cases, impose harsher restrictions.\35\
    Though the new provincial regulations have promoted 
uniformity with national regulations, they also contain 
provisions that differ from each other and from the national 
RRA. A new comprehensive regulation from Hunan province, for 
example, is the first comprehensive provincial-level regulation 
on religion to provide limited recognition for venues for folk 
beliefs.\36\ Measures from the Tibet Autonomous Region provide 
detailed stipulations for the designation and supervision of 
reincarnated Buddhist lamas.\37\ Some 
provincial-level regulations recognize only Buddhism, 
Catholicism, Daoism, Islam, and Protestantism. Others are 
silent on this issue.\38\

           Recognized and Unrecognized Religious Communities

    The central government has not made progress in extending 
its limited legal protections for religion to all Chinese 
citizens. The Regulation on Religious Affairs (RRA) did not 
explicitly codify Buddhism, Catholicism, Daoism, Islam, and 
Protestantism as China's only recognized religious communities, 
but the government perpetuates a regulatory system that 
recognizes only these communities, with limited exceptions.\39\ 
Although recognized groups receive limited guarantees to 
practice ``normal religious activities,'' they must submit to 
state-defined interpretations of their faith as well as ongoing 
state control over internal affairs. The RRA and subsequent 
regulations continue to subject recognized communities to 
onerous registration and reporting requirements.\40\
    Party-sponsored religious associations,\41\ with which 
religious communities must affiliate, remain the state's main 
vehicle for ensuring religious practice conforms to Party goals 
and for denying religious communities doctrinal 
independence.\42\ The associations vet religious leaders for 
political reliability, and religious leaders who express 
sensitive political views have faced dismissal from their 
posts. For example, in 2006, the national Buddhist Association, 
in coordination with government officials, expelled a Buddhist 
monk from a temple in Jiangxi province after the monk led 
religious activities to commemorate victims of the 1989 
Tiananmen crackdown and took measures to address corruption 
among government officials and the Buddhist Association.\43\ 
Authorities in the Xinjiang Uighur Autonomous Region have 
enforced an ongoing campaign to monitor imams and decertify 
religious leaders deemed unreliable.\44\
    Unregistered religious and spiritual communities continue 
to practice their faith under the risk of harassment, 
detention, and other abuses. Differences in legislation and 
regional variations in the implementation of religious policy 
have allowed a limited number of unrecognized groups to operate 
openly.\45\ Without the clear guarantee that all citizens have 
a right to openly practice their religion, however, all 
unregistered communities remain vulnerable to official abuses 
and restrictions on their freedom. Religious and spiritual 
communities defined as ``cults'' remain subject to persecution. 
In 2004, the Party increased its campaign against organizations 
it designated as cults, targeting Falun Gong practitioners as 
well as unregistered communities including Buddhist and 
Christian groups.\46\ In July 2007, the central government 
instructed officials to ``strike hard against illegal religions 
and cult activities'' as part of a campaign to address 
perceived instability in rural areas.\47\ The promulgation of 
the RRA may increase pressures on unregistered groups. A 
district in Shanghai, for example, has set targets for carrying 
out work to eliminate ``abnormal religious activity'' in 
accordance with the RRA.\48\

 Freedom To Interact with Foreign Co-religionists and Co-religionists 
                                 Abroad

    The Chinese government restricts Chinese citizens' freedom 
to interact with foreign citizens in China and with citizens 
abroad as part of its policy to promote self-management and 
independence from foreign religious institutions.\49\ Chinese 
officials have increased oversight of citizens' contacts with 
foreign religious practitioners within China in the run-up to 
the 2008 Beijing Summer Olympic Games. In March 2007, Minister 
of Public Security Zhou Yongkang said the government would 
``strike hard'' against hostile forces inside and outside the 
country, including religious and spiritual groups, to ensure a 
``good social environment'' for the Olympics and 17th Party 
Congress.\50\ In 2006, local officials expelled a registered 
church leader in Shanxi province after his church invited an 
American missionary to the church.\51\ According to the 
nongovernmental organization China Aid Association, authorities 
implemented a campaign in 2007 to expel foreigners thought to 
be engaged in Christian missionary activities.\52\ National 
rules governing the religious activities of foreigners forbid 
them from ``cultivating followers from among Chinese 
citizens,'' distributing ``religious propaganda materials,'' 
and carrying out other missionary activities.\53\

                Freedom of Religion for Chinese Children

    The Chinese government failed to secure the rights of 
children to practice religion in its recent codification of 
religious policy. Although a Ministry of Foreign Affairs 
official stated in 2005 that no laws restrict minors from 
holding religious beliefs and that parents may give their 
children a religious education,\54\ recent legislation has not 
articulated a guarantee of these rights. Regulations from some 
provinces penalize acts such as ``instigating'' minors to 
believe in religion or accepting them into a religion.\55\ In 
practice, children in some parts of China participate in 
religious activities at registered and unregistered venues,\56\ 
but in other areas, they have been restricted from 
participating in religious services.\57\
    Ambiguities in the law and variations in implementation 
have created space for children in some parts of China to 
receive a religious education. Some Muslim communities outside 
the Xinjiang Uighur Autonomous Region have established schools 
to provide secular and religious education to children.\58\ In 
some ethnic minority communities, children receive education at 
Buddhist temples.\59\
    Some recent government campaigns against religion have 
targeted children. In 2004, authorities launched campaigns to 
educate children against the evils of government-designated 
cults and to encourage children to expose family members 
engaged in ``illegal religious activities.'' \60\ In 2006, Ye 
Xiaowen called for strengthening education in atheism 
especially among children.\61\

           Social Welfare Activities by Religious Communities

    The government accommodates, and in some cases, sponsors, 
the social welfare activities of recognized religious 
communities where such activities meet Party goals. Article 34 
of the Regulation on Religious Affairs allows registered 
religious communities to organize such undertakings.\62\ In 
some cases, government offices and Party-led religious 
associations initiate and control the scope of social welfare 
activities.\63\ In other cases, religious civil society 
organizations organize their work under other auspices or are 
able to operate without registering with the government.\64\
    Government support for religious charity work is part of a 
broader policy allowing civil society organizations to provide 
welfare services in certain areas. [See Section III--Civil 
Society for more information.] The government also has 
permitted some international religious organizations to engage in 
charity work within China.\65\ In recent years, however, the 
government has increased pressures on civil society organizations.\66\ 
Religiously affiliated civil society groups in tightly 
controlled regions such as the Xinjiang Uighur Autonomous 
Region (XUAR) face additional restrictions. For example, local 
authorities in the XUAR have banned meshrep, Islam-centered 
groups that have sought to address social problems.\67\


                RELIGIOUS FREEDOM FOR TIBETAN BUDDHISTS


                                Overview

    The Chinese government creates a repressive environment for 
the practice of Tibetan Buddhism. Two new sets of legal 
measures increase legal bases for repression. Tibetan Buddhist 
monks and nuns remain subject to expulsions from religious 
institutions and imprisonment for refusing to accept government 
policy on issues such as the legitimacy of the Dalai Lama as a 
religious leader, and the identity of the Panchen Lama. For a 
detailed overview of current conditions for Tibetan Buddhists in 
China, see Section IV--Tibet.


                RELIGIOUS FREEDOM FOR CHINA'S CATHOLICS


                              Overview\68\

    The Chinese government continues to deny Chinese Catholics 
the freedom to recognize the authority of overseas Catholic 
institutions in a manner of their choosing. Authorities blocked 
Web sites in 2007 to prevent Catholic practitioners from 
viewing an open letter from Pope Benedict XVI urging 
reconciliation between registered and unregistered communities 
in China. Government harassment against Catholic communities 
has escalated since 2004. The government continues to detain 
unregistered bishops and coerce registered bishops to exercise 
their faith according to Party-dictated terms. The return of 
property owned by the Catholic Church in the 1950s and 1960s 
remains a contentious issue. Officials and unidentified 
assailants have beaten people protesting slated demolitions of 
church property.

                Harassment, Detention, and Other Abuses

    Both unregistered Catholics and registered clergy remain 
subject to government harassment, and in some cases, detention. 
The Commission noted an increase in reported detentions of 
unregistered Catholics in 2005, after the Regulation on 
Religious Affairs entered into force.\69\ In June 2007, the 
public security bureau detained Jia Zhiguo, underground bishop 
of the Diocese of Zhending, in Hebei province, for 17 days.\70\ 
Authorities detained him again in August as he prepared to lead 
meetings to discuss a letter Pope Benedict XVI issued to 
Chinese Catholics in June.\71\ Jia previously spent more than 
20 years in prison.\72\ In 2006, the government increased 
pressure on registered bishops and priests to coerce them to 
participate in bishop consecrations without papal approval. 
Authorities detained, sequestered, threatened, or otherwise 
exerted pressure on registered Catholic clerics to obtain 
compliance.\73\ Authorities have pressured both unregistered 
clergy and lay practitioners to join registered churches or 
face repercussions such as restricting children's access to 
school, job dismissal, fines, and detention.\74\

Closures of Religious Structures and Confiscation of Religious Property

    The return of religious property remains a contentious 
issue. In recent years, some registered Catholic groups have 
called on the government to give back church property 
confiscated in the 1950s and 1960s, and in separate incidents, 
officials or unidentified assailants have beaten people 
protesting the slated demolition of such property. For example, 
in 2005, government officials assaulted a group of Catholic 
nuns in a village near the city of Xi'an, in Shaanxi province, 
after the nuns had attempted to prevent the 
authorities from erecting a new building on property that the 
government confiscated from their religious order during the 
1950s. According to overseas sources, the nuns were not 
injured, and the construction work was halted after the 
assault. In another incident in 2005, unidentified assailants 
beat a group of Catholic nuns in Xi'an after the nuns had 
organized a sit-in to prevent the demolition of a school 
formerly belonging to their religious order. In a separate 
incident, unidentified assailants beat a group of Catholic 
priests in Tianjin who had occupied a building formerly 
belonging to their Shanxi dioceses and demanded its return. At 
issue in all three cases was the refusal of local authorities 
to abide by government instructions mandating the return of 
such property.\75\

                        China-Holy See Relations

    The state-controlled Catholic Patriotic Association (CPA) 
does not recognize the authority of the Holy See to appoint 
bishops and has continued to appoint bishops based on its own 
procedures, in some cases coercing clerics to participate in 
consecration ceremonies. While in recent years authorities had 
tolerated discreet involvement by the Holy See in the selection 
of some bishops, in 2006 the CPA moved to appoint more bishops 
without Holy See approval. For example, in November 2006, the 
CPA appointed Wang Renlei as auxiliary bishop of the Xuzhou 
diocese, Jiangsu province, without Holy See approval, and 
authorities reportedly detained two bishops to force their 
participation in the ordination ceremony.\76\
    In September 2007, the CPA ordained Paul Xiao Zejiang as 
coadjutor bishop of the Guizhou diocese. Though the CPA elected 
him according to its own practices, the Holy See expressed 
approval of his election to bishop.\77\ The same month, the CPA 
ordained Li Shan as bishop of Beijing according to its own 
practices. The Holy See expressed approval for the 
ordination.\78\
    The ordinations follow a June 2007 open letter from Pope 
Benedict XVI to Catholic church members in China, urging 
reconciliation between registered and unregistered Catholic 
communities in China and stating that ``the Catholic Church 
which is in China does not have a mission to change the 
structure or administration of the State.'' \79\ After the 
letter was published on the Vatican Web site, Chinese 
authorities blocked Internet access and ordered Catholic Web 
sites within China to remove the letter.\80\ An overseas news 
agency reported that local authorities have since detained at 
least 11 unregistered church priests in an effort to assert 
official authority in the aftermath of the letter's 
publication.\81\
    Government apprehension about Chinese Catholics' 
relationship with foreign religious communities and 
institutions also manifested itself in 2007 in the Xinjiang 
Uighur Autonomous Region (XUAR). In July, the XUAR government 
announced it would strengthen oversight of Catholic and 
Protestant communities to prevent foreign infiltration, a call 
reiterated in August by local authorities in the XUAR's Changji 
Hui Autonomous Prefecture.\82\
    The government has penalized members of the unregistered 
Catholic community for their overseas travel. In 2006, 
authorities detained two leaders of the unregistered Wenzhou 
diocese, Peter Shao Zhumin and Paul Jiang Surang, after they 
returned from a pilgrimage to Rome. Six months after their 
detention, Shao and Jiang received prison sentences of 9 and 11 
months, respectively, after authorities accused them of 
falsifying their passports and charged them with illegally 
exiting the country.\83\


                 RELIGIOUS FREEDOM FOR CHINA'S MUSLIMS


                              Overview\84\

    The government strictly controls the practice of Islam, and 
religious repression in the Xinjiang Uighur Autonomous Region 
(XUAR), especially among the Uighur ethnic group, remains 
severe. In recent years the government has increased control 
over Muslim pilgrimages and continued an ongoing project to 
author sermons that reflect Party values. New confirmation 
rules for religious leaders require knowledge of the sermons. 
Authorities reportedly have tried to restrict the number of 
Muslim students who study religion overseas. Within the XUAR, 
the government restricts access to mosques, imprisons citizens 
for religious activity determined to be ``extremist,'' has 
detained people for possession of unauthorized texts, and most 
recently has confiscated Muslims' passports. The XUAR 
government maintains the harshest legal restrictions in China 
on children's right to practice religion. Religious repression 
in the XUAR accompanies a broader crackdown in the region aimed 
at diluting expressions of Uighur identity. [See Section II--
Ethnic Minority Rights for more information on conditions in 
the XUAR.]

                Harassment, Detention, and Other Abuses

    Authorities in the XUAR have intensified their crackdown on 
religion since 2001. Official records have indicated an 
increase in Uighurs in the XUAR sent to prison or reeducation 
through labor centers because of religious activity since the 
mid-1990s.\85\ XUAR residents reported to overseas human rights 
organizations that police monitoring for illegal activity, 
including systematic door-to-door searches within neighborhoods 
and villages, has increased in recent years.\86\
    In recent years, authorities have detained people for 
having unauthorized religious texts. In 2005, authorities in the XUAR 
detained a religion instructor and her students, accusing the 
teacher of ``illegally possessing religious materials and 
subversive historical information.'' \87\ XUAR officials also 
detained a group of people for possessing an unauthorized 
religious book.\88\

     Access to Religious Sites and Closures of Religious Structures

    The government continues to enforce tight restrictions on 
XUAR residents' ability to enter mosques. Overseas media has 
reported on restrictions on mosque entry enforced against 
minors under 18, local government employees, state employees 
and retirees, and women, among other groups. Authorities 
reportedly monitor attendance at mosques and levy fines when 
people violate the bans.\89\
    Authorities in the XUAR continue to enforce earlier 
policies to demolish ``illegal'' religious sites, and they have 
increased oversight since 2001.\90\ Authorities reportedly have 
not allowed Uighurs in the XUAR to build new mosques since 
1999.\91\

        Restrictions on the Freedom To Make Overseas Pilgrimages

    The central government has increased its control over 
Muslims' overseas pilgrimages in recent years, and public 
officials in the XUAR have followed suit with further 
restrictions. The 2004 
national Regulation on Religious Affairs charged the Islamic 
Association of China (IAC) with responsibility for organizing 
Chinese Muslims' overseas pilgrimages, and stipulated 
punishments for the unauthorized organization of such 
trips.\92\ In 2006, the IAC established an office to manage 
pilgrimages to Mecca.\93\ It also signed an agreement with the 
Saudi Ministry of Pilgrimage allowing Chinese Muslim pilgrims 
to receive Hajj visas only at the Saudi Embassy in Beijing and 
restricting visas to pilgrims in official Chinese government-
sponsored travel groups. The government announced its agreement 
with Saudi Arabia after a group of Muslims from the XUAR 
attempted to obtain Saudi visas via a third country. In 
addition, the IAC issued a circular in 2006 that regulates 
secondary pilgrimages (umrah) to Mecca outside the yearly 
Hajj.\94\ Some citizens who have tried to take trips outside 
official channels reportedly have done so to avoid requirements 
to demonstrate political reliability to the government and to 
save money, among other factors.\95\ Authorities also 
reportedly have tried to restrict Muslims' opportunities to 
study religion overseas.\96\
    Local officials in the XUAR have used pilgrimage policy to 
further religious repression in that region. In June 2007, 
after XUAR Party Secretary Wang Lequan announced that the 
government would further increase its oversight of pilgrimages 
in the region, overseas media reported that local authorities 
implemented a policy to confiscate passports from Muslims, and 
Uighurs in particular.\97\ In July, the XUAR government 
announced that the public security bureau would strengthen 
passport controls as part of its campaign to curb unauthorized 
pilgrimages.\98\

                         Religious Publications

    The government continues to exert tight control over the 
publications of religious materials in the XUAR. In 2007, 
authorities in the XUAR city of Urumqi reported destroying over 
25,000 ``illegal'' religious books.\99\ During a month-long 
campaign in 2006 aimed at rooting out ``political and religious 
illegal publications,'' XUAR authorities reported confiscating 
publications about Islam with ``unhealthy content.'' \100\ In 
2005, official news media reported that XUAR authorities had 
confiscated 9,860 illegal publications involving religion, 
``feudal superstitions,'' or Falun Gong.\101\

                                Children

    Restrictions on children's right to practice religion are 
harsher in the XUAR than elsewhere in China. Legal measures 
from the XUAR, unseen elsewhere in China, forbid parents and 
guardians from allowing minors to engage in religious 
activity.\102\ Local governments throughout the XUAR continued 
restrictions on children's right to practice a religion during 
2006. They enforced measures during Ramadan to prevent students 
from fasting and participating in other religious activities. 
Authorities also directed such measures at college students who 
are legal adults under Chinese law.\103\ Also in 2006, a county 
government in the XUAR began a campaign aimed at monitoring and 
reforming the children of religious figures, alongside other 
students including truants and children of those 
released from administrative detention.\104\


               RELIGIOUS FREEDOM FOR CHINA'S PROTESTANTS


                             Overview\105\

    The government and Party control the activities of its 
official Protestant church, and the government continues to 
target unregistered Protestant groups for harassment, 
detention, and other forms of abuse. The targeting of 
Protestant groups deemed to be cults intensified in 2004 and 
again in 2006. Authorities continue to close house churches and 
confiscate property. The government has included in this 
crackdown groups with ties to foreign co-religionists. 
Religious adherents serving prison sentences include clergy who 
printed and distributed religious texts without government 
permission. Members of unregistered house churches have made 
some advances in challenging government actions, but harassment 
and abuses continue.

                Harassment, Detention, and Other Abuses

    Authorities continue to target some unregistered Protestant 
communities for harassment, detention, and other abuses. A July 
2007 report from a district within Shanghai called on 
authorities to strengthen control over grassroots religious 
activity and singled out private Protestant gatherings for 
monitoring and regulation.\106\ The China Aid Association 
(CAA), a U.S.-based nongovernmental organization that monitors 
religious freedom in China, recorded 600 detentions of 
unregistered Protestants in China during 2006. It noted that 
the figure represents a decline from over 2,000 detentions 
recorded in 2005, but attributed the decrease to a new strategy 
of targeting church leaders over practitioners and 
interrogating practitioners on the spot rather than formally 
arresting them.\107\ The CAA found that 18 people were 
sentenced to more than a year of imprisonment in 2006.\108\ In 
2007, seven police officers attacked and wounded Beijing house 
church pastor and farmer advocate Hua Huiqi and his 76-year-old 
mother Shuang Shuying.\109\ Officials charged Hua, who had been 
previously detained by local officials, with obstruction of 
justice and sentenced him to six months in prison. Shuang was 
charged with willfully damaging property and 
sentenced to two years in prison. An overseas report in August 
2007 indicated that police were using Shuang's imprisonment as 
leverage to pressure Hua to become a police informant. In 
September, authorities reportedly denied Shuang medical parole 
despite her poor health.\110\ In October, CAA reported that 
authorities placed Hua under house arrest on October 1 and 
informed him that his mother's imprisonment was intended to 
pressure Hua to stop his activism. CAA reported Shuang had been 
beaten in prison.\111\ Gong Shengliang, founder of the South 
China Church, continues to serve a life sentence for alleged 
assault and rape, and is reported to be in poor health.\112\ 
Authorities released Liu Fenggang from prison in February 2007 
after he served a three-year sentence for reporting on the 
government demolition of house churches.\113\ CAA reported that 
authorities later placed him under house arrest, starting on 
October 1, 2007.\114\

Closures of Religious Structures and Confiscation of Religious Property

    The government states there are no registration 
requirements for religious gatherings within the home,\115\ but 
public officials continue to target unregistered Protestant 
churches for closure and demolition. For example, in July 2007, 
CAA reported that three underground church buildings in 
Wenzhou, Zhejiang province faced imminent demolition by local 
government authorities. The government accused the believers of 
subscribing to an ``evil cult'' and threatened to arrest them 
if they impeded the demolition.\116\ In 2006, a court case 
against religious adherents who had protested the demolition of 
a church building in the Xiaoshan district of Hangzhou, 
Zhejiang province, concluded with the sentencing of eight house 
church leaders for ``inciting violence to resist the law.'' 
\117\ According to the CAA, closures of house churches 
increased between 2005 and 2006.\118\
    The government also exerts control over the property of 
registered Protestant churches. In 2006, approximately 300 
members of a registered Protestant church in Gansu province 
engaged in a peaceful demonstration to demand the return of 
property that had been confiscated by the government in 
1966.\119\

                            Religious Speech

    Chinese authorities continue to punish citizens who publish 
religious materials without permission, including Protestant 
religious leaders who have printed and given away Bibles. In 
separate incidents in 2005 and 2006, pastors Cai Zhuohua and 
Wang Zaiqing received prison sentences of three and two years, 
respectively, after each printed and distributed religious 
materials without government permission. In each case, the 
sentencing court found that the preparation and distribution of 
the materials constituted the ``illegal operation of a 
business,'' a crime under Article 225 of the Criminal Law.\120\ 
Authorities released Cai from prison upon completion of his 
three-year prison sentence on September 10, 2007.\121\ The 
government has also detained people for publicizing abuses 
against house church members. In 2006, Chinese authorities 
detained a documentary filmmaker who was making a film about 
house churches and detained a journalist after he posted 
reports publicizing protests about a church demolition.\122\

                     Challenging Government Actions

    Some members of unregistered churches have used the legal 
system to challenge government actions. In August 2006, a court 
in Henan province rescinded a decision to subject a house 
church pastor to one year of reeducation through labor for 
participating in a house church gathering authorities deemed 
illegal. In November 2006, a group in Shandong province that 
previously had been placed in administrative detention for 
their attendance at a house church service reached a settlement 
with the Public Security Bureau to rescind the administrative 
detention decision against them. [See Section II--Rights of 
Criminal Suspects and Defendants for more information.] In 
neither case did the rescission include recognition of 
practitioners' right to assemble for worship outside of 
registered venues for religious activity.\123\ Not all 
challenges to government actions have been successful. In 2007, 
local governments in Henan province and the Inner Mongolia 
Autonomous Region rejected unregistered church leaders' 
applications for administrative review of their 
detentions.\124\ In addition, rights defenders who have 
advocated on behalf of house church members and other groups 
have faced repercussions.\125\
    Outside of legal channels, international pressure has 
resulted in advances for some house churches. CAA reported that 
international pressure facilitated the release of 33 arrested 
house church leaders and 3 South Korean church leaders who had 
been detained after officials raided a house church study group 
in Henan province in 2007.\126\ Two days after two house church 
pastors appealed for administrative reconsideration regarding a 
2007 raid on their churches, local officials in Jiangsu 
province returned confiscated property, citing concerns about 
negative international repercussions.\127\

 Freedom To Interact with Foreign Co-religionists and Co-religionists 
                                 Abroad

    Authorities have promoted official exchanges with overseas 
Protestant churches, including Chinese participation in a 2005 
World Council of Churches conference,\128\ but have restricted 
citizens from participating in programs outside these official 
channels. For example, authorities prevented house church 
members and legal advocates Fan Yafeng, Gao Zhisheng, and Teng 
Biao from attending a Washington, DC-based forum on religious 
freedom in 2005.\129\
    In July, the Xinjiang Uighur Autonomous Region (XUAR) 
government announced it would strengthen oversight of 
Protestant and Catholic communities to prevent foreign 
infiltration in the names of these religions.\130\ The 
announcement followed church service raids in the XUAR during 
2006 and 2007, including those with foreign worshippers and 
pastors.\131\ According to CAA, more than 60 of over 100 
missionaries expelled from China between April and June 2007 
came from the XUAR.\132\
    The government has punished some house church members for 
traveling overseas. Unregistered Protestant church leader Zhang 
Rongliang, who resorted to obtaining illegal travel documents 
after the government refused to issue him a passport, was 
sentenced to seven and a half years' imprisonment in 2006 on 
charges of illegally crossing the border and fraudulently 
obtaining a passport.\133\ Also in 2006, authorities placed 
house church historian and former political prisoner Zhang 
Yinan and his family under surveillance after he applied for a 
passport to attend a religious function in the United 
States.\134\


                  GOVERNMENT PERSECUTION OF FALUN GONG


    The government has continued its campaign of persecution 
against Falun Gong practitioners, which it began in 1999. In 
its 2007 report on religious freedom in China, the U.S. 
Department of State noted past reports of deaths and abuse of 
Falun Gong practitioners in custody.\135\ Government officials 
have used both the Criminal Law and administrative punishment 
regulations as legal pretexts for penalizing Falun Gong 
activities.\136\ Citizens sentenced to prison terms under the 
Criminal Law include Falun Gong practitioners who demonstrated 
in support of Falun Gong in 1999, as well as practitioners who 
prepared leaflets about Falun Gong, including Wang Xin, Li 
Chang, Wang Zhiwen, and Ji Liewu.\137\ Authorities released Yao 
Jie in 2006 after sentencing her in 1999 to seven years' 
imprisonment for crimes related to organizing and using a cult 
and for illegal acquisition of state secrets. The charges stem 
from accusations that she organized an April 1999 rally of 
Falun Gong practitioners outside the central government's 
leadership compound.\138\
    Falun Gong practitioners and rights defenders who advocate 
on their behalf, as well as on behalf of other communities, 
including house church members, face serious obstacles in 
challenging government abuses. In 2006, authorities intensified 
a campaign of harassment against lawyer Gao Zhisheng, who has 
represented numerous activists, religious leaders, and writers, 
after he publicized widespread torture against Falun Gong practitioners. 
A Beijing court convicted him in 2006 to a three-year sentence, 
suspended for five years, for ``inciting subversion of state 
power.'' \139\ Gao went missing immediately after an open 
letter that he sent to the U.S. Congress was made public at a 
Capitol Hill press conference on September 20, 2007. 
Authorities also have harassed members of his family.\140\ [For 
additional information, see Section II--Rights of Criminal 
Suspects and Defendants.] Overseas organizations reported that 
on September 29, 2007, unidentified assailants beat rights 
defense lawyer Li Heping, who had advocated on behalf of Falun 
Gong practitioners and house church members, among others.\141\
    In 2006, courts in Shandong province rejected appeals from 
Liu Ruping and his lawyer that challenged Liu's sentence of 15 
months of reeducation through labor for posting Falun Gong 
notices.\142\
    In 2007, the government used possession of Falun Gong 
materials as a pretext for squelching a political activist. In 
March, a court in Zhejiang province gave a three-year sentence 
to Chi Jianwei, a member of the Zhejiang branch of the China 
Democracy Party, for ``using a cult to undermine implementation 
of the law'' after authorities found Falun Gong materials in 
his home.\143\


                OTHER RELIGIOUS AND SPRITUAL COMMUNITIES


    Local governments continue to shut down unauthorized 
Buddhist and Daoist temples. Towns and cities reported in 2006 
on campaigns to address the presence of illegal temples through 
measures that included closure and demolition.\144\ Some local 
governments have targeted temples that include practices deemed 
as superstitious beliefs.\145\ Other temples have registered 
and submitted to official control. At a forum evaluating 
implementation of the Regulation on Religious Affairs in 2007, 
the president of the Daoist Association of China noted that the 
regulation has led to the registration of previously 
unregistered Daoist temples.\146\
    The government has supported some official interactions 
between domestic and foreign Buddhist communities,\147\ but 
also limited some foreign involvement. In 2004, authorities 
closed a Buddhist temple renovated by an American Buddhist 
association and detained the temple's designated leader.\148\
    Chinese religious adherents with ties to foreign religious 
communities not recognized within China have had leeway to 
practice their religion in some cases. The U.S. Department of 
State reported in 2006 that some Chinese citizens who joined 
the Church of Jesus Christ of Latter-day Saints (LDS) while 
living abroad met for 
worship in a Beijing location that Chinese authorities 
permitted expatriate LDS members to use.\149\ The central government 
continues to deny formal recognition to the LDS church as a 
domestic religious community, however, as it does other 
religious communities outside the five recognized groups, 
including Christian denominations that maintain a distinct 
identity outside the Chinese government-defined Protestant and 
Catholic churches. A few local governments provide legal 
recognition to Orthodox Christian communities, but the central 
government has not recognized Orthodoxy as a religion.\150\ In 
recent years, officials have met with representatives of the 
Russian Orthodox Church to discuss China's Orthodox 
communities.\151\
    Central and local authorities have drawn some aspects of 
folk beliefs into official purview. Since at least 2004, the State 
Administration for Religious Affairs has operated an office 
that undertakes research and policy positions on folk beliefs 
and religious communities outside the five recognized 
groups,\152\ but the government has neither extended formal 
legal recognition to any of these groups nor altered its system 
whereby religious communities must receive government 
recognition to operate. In 2006, Hunan province issued the 
first provincial-level regulation on religious affairs to 
provide for the registration of venues for folk beliefs.\153\ 
The Hunan provincial government's decision to channel folk 
religions into the government system of religious regulation 
provides some limited legal protections, but also may subject 
more aspects of folk practice to government control. To date, 
no other provincial regulation has regulated folk beliefs,\154\ 
but a central government official has indicated that the 
government is studying the Hunan model and may formulate 
national legal guidance on the regulation of folk belief 
venues.\155\ Authorities continue, however, to express concern 
over components within recognized religions deemed as folk 
beliefs, and view some aspects of folk practice as 
superstitions subject to official censure, and in some cases, 
legal penalties.\156\

                                Endnotes

    \1\ CECC, 2004 Annual Report, 5 October 2004, 34, 36-37.
    \2\ CECC, 2006 Annual Report, 20 September 2006, 93.
    \3\ CECC, 2004 Annual Report, 39; CECC, 2005 Annual Report, 11 
October 05, 49; CECC, 2006 Annual Report, 86-87.
    \4\ See, e.g., CECC, 2005 Annual Report, 52; CECC, 2006 Annual 
Report, 91.
    \5\ See discussion infra and in Section IV, ``Tibet,'' for more 
information on religion-related legislative developments in Tibetan 
areas of China.
    \6\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06. See discussion infra for 
more information on closures of Buddhist and Daoist temples.
    \7\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2007, China (includes 
Tibet, Hong Kong, and Macau), 14 September 07. The International 
Religious Freedom Act mandates that the ``Country of Particular 
Concern'' designation be made for countries that ``engaged in or 
tolerated particularly severe violations of religious freedom,'' and 
sets out possible courses of action, including sanctions, toward these 
countries. See International Religious Freedom Act of 1998, 22 U.S.C. 
6401 et seq., 6442(b)(1)(A), 6442 (c), 6445. In 2006, John V. Hanford 
III, Ambassador at Large for International Religious Freedom, noted 
that the climate for religious freedom had improved in recent decades 
but that ``a number of setback[s]'' have taken place in the past two to 
three years. Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, On-the-Record Briefing on the Release of the 
Department of State's Annual Report on International Religious Freedom, 
15 September 06.
    \8\ See, e.g., PRC Constitution, art. 36; Regulation on Religious 
Affairs (RRA) [Zongjiao shiwu tiaoli], issued 30 November 04, art. 2; 
PRC Regional Ethnic Autonomy Law (REAL), enacted 31 May 84, amended 28 
February 01, art. 11.
    \9\ See, e.g., the Universal Declaration of Human Rights (UDHR), 
adopted and proclaimed by General Assembly resolution 217A (III) of 10 
December 48, art. 18.
    \10\ See, e.g., PRC Constitution, art. 36; RRA, art. 3; REAL, art. 
11.
    \11\ Registration requirements to form a religious organization and 
establish a venue for religious activities are found in RRA, art. 6 and 
art. 13-15. See also Measures on the Examination, Approval, and 
Registration of Venues for Religious Activity [Zongjiao huodong 
changsuo sheli shenpi he dengji banfa], issued 21 April 05.
    \12\ See discussion on religious speech, infra, as well as ``Prior 
Restraints on Religious Publishing in China'' in the CECC Virtual 
Academy for more information.
    \13\ See discussions on citizens' freedom to interact with foreign 
co-religionists, infra.
    \14\ See the discussion on children, infra.
    \15\ ``Head of Religious Association: Religious Adherents Not 
Arrested Due to Their Faith,'' CECC Virtual Academy (Online), 26 June 
06.
    \16\ See, e.g., UDHR, art. 18; International Covenant on Civil and 
Political Rights (ICCPR), adopted by General Assembly resolution 2200A 
(XXI) of 16 December 66, entry into force 23 March 76, art. 18; the 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 13(3) (requiring 
States Parties to ``ensure the religious and moral education of . . . 
children in conformity with [the parents'] own convictions''); and the 
Convention on the Rights of the Child (CRC), adopted and opened for 
signature, ratification, and accession by General Assembly resolution 
44/25 of 20 November 89, entry into force 2 September 90, art. 14; 
Declaration on the Elimination of All Forms of Intolerance and of 
Discrimination Based on Religion or Belief, General Assembly resolution 
36/55 of 25 November 81.
    \17\ China is a party to the ICESCR and the CRC, and a signatory to 
the ICCPR. The Chinese government has committed itself to ratifying, 
and thus bringing its laws into conformity with, the ICCPR and 
reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly. As a signatory to the ICCPR, China is required under Article 
18 of the Vienna Convention on the Law of Treaties, to which it is a 
party, ``to refrain from acts which would defeat the object and purpose 
of a treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \18\ See General Comment No. 22 to Article 18 of the ICCPR for an 
official interpretation of freedom of religion as articulated in the 
ICCPR. General Comment No. 22: The Right to Freedom of Thought, 
Conscience, and Religion (Art. 18), 30 July 93, para. 1. This section 
of the Commission's Annual Report primarily uses the expression 
``freedom of religion'' but encompasses within this term reference to 
the more broadly articulated freedom of ``thought, conscience, and 
religion'' (see, e.g., UDHR, art. 18; ICCPR, art. 18).
    \19\ ICCPR, art. 18(1), (2), (4). See also General Comment No. 22, 
para. 1, 2, 4, 6; and CRC, art. 14. See also Declaration on the 
Elimination of All Forms of Intolerance and of Discrimination Based on 
Religion or Belief.
    \20\ For more background on government policy to ``use law to 
strengthen management of religious affairs,'' see, e.g., Ye Xiaowen, 
``Preface,'' in Shuai Feng and Li Jian, Interpretation of the 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli shiyi], 
(Beijing: Beijing Religious Culture Press, 2005), 1-2 (pagination for 
preface); Beatrice Leung, ``China's Religious Freedom Policy: The Art 
of Managing Religious Activity,'' The China Quarterly, no. 184, 894, 
907-911 (2005).
    \21\ Zhang Xunmou, Policy and Law Department of the State 
Administration for Religious Affairs, quoted in Nailene Chou Wiest, 
``Religious Groups Get More Room to Move,'' South China Morning Post 
(Online), 20 October 04.
    \22\ See, e.g., Public Security Bureau Personnel Training Bureau, 
Lectures on Domestic Security Defense Studies [Guonei anquan baoweixue 
jiaocheng] (Beijing: Mass Publishing Company, 2001), 141-142.
    \23\ Wang Zhimin, ``Thoughts on How To Safeguard Social Stability 
and Supply High-Grade Service in the Course of Developing the West'' 
[Dui xibu dakaifa zhong ruhe weihu shehui wending tigong youzhi fuwu de 
sikao], in Police Science Society of China, ed., Collected Essays on 
Public Security Work and Developing the West, (Beijing: Chinese 
People's Public Security University Press, 2002), 254.
    \24\ See, e.g., Ye Xiaowen, ``Give Play to the Positive Role of 
Religion in Pushing Forward Social Harmony,'' Study Times, 25 December 
06 (Open Source Center, 8 January 07). For earlier statements, see, 
e.g., Sun Chengbin and Yin Hongzhu, ``National Work Conference on 
Religious Affairs Held in Beijing, Jiang Zemin Stressed Need to 
Effectively Do a Good Job in Religious Work at the Beginning of This 
Century To Serve the Overall Situation of Reform, Development, and 
Stability,'' Xinhua, 12 December 01 (Open Source Center, 12 December 
01).
    \25\ See, e.g., Ye, ``Give Play to the Positive Role of Religion in 
Pushing Forward Social Harmony;'' ``SARA Director Calls for Continued 
Controls on Religion,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 8.
    \26\ ``SARA Director Calls for Continued Controls on Religion,'' 
CECC China Human Rights and Rule of Law Update, September 2006, 8.
    \27\ For more information, see, e.g., CECC, 2006 Annual Report, 89, 
93.
    \28\ Ye Xiaowen, ``Correctly Understanding and Handling the 
Religious Relationship in the Socialist Society--Studying Comrade Hu 
Jintao's Important Speech at the National United Front Work 
Conference,'' Seeking Truth, 18 August 06 (Open Source Center, 23 
August 06).
    \29\ Wu Jiao, ``Religious Believers Thrice the Official Estimate: 
Poll,'' China Daily, 7 February 07 (Open Source Center, 7 February 07). 
Figures differ greatly. Unofficial estimates indicate a rapid growth in 
numbers in some religious communities. For example, overseas sources 
have estimated that up to 100 million people worship in unregistered 
Protestant churches and that the number continues to grow. Official 
government sources have stated that China has 16 million Protestants 
and 4.5 million Catholics affiliated with the state-controlled Catholic 
church, but State Administration for Religious Affairs director Ye 
Xiaowen also reportedly said that China had 130 million Protestants and 
Catholics as of 2006. For an overview of official and unofficial 
statistics, see U.S. Department of State, International Religious 
Freedom Report--2006, China, and U.S. Department of State, 
International Religious Freedom Report --2007, China.
    \30\ ``Diligently Strengthen the Foundation, Arouse the Passions To 
Serve the Situation--A Scan of Religious Work in 2005'' [Yongxin guben 
qiangji dongqing fuwu daju--2005 zongjiao gongzuo saomiao], China 
Religions 2006 volume 1, reprinted on the State Administration for 
Religious Affairs Web site, 27 January 06.
    \31\ See, e.g., ``SARA Holds First Term of Religious Work Cadre 
Training'' [Guojia zongjiaoju juban diyiqi zongjiao gongzuo ganbu 
peixunban], United Front Work Department (Online), 4 December 06; 
``Suzhou Daily: Our City's Religious Personages Discuss Study and 
Implementation of `Regulation on Religious Affairs''' [Suzhou ribao: 
woshi zongjiaojie renshi zuotan xuexi guanche `zongjiao shiwu tiaoli'], 
Suzhou Daily, reprinted on the Suzhou Ethnic and Religious Affairs 
Bureau Web site, 17 March 07.
    \32\ Measures on the Examination, Approval, and Registration of 
Venues for Religious Activity; Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism [Cangchuan fojiao 
huofo zhuanshi guanli banfa], issued 18 July 07; Measures on 
Establishing Religious Schools [Zongjiao yuanxiao sheli banfa], issued 
1 August 07; Measures for Putting on File the Main Religious Personnel 
of Venues for Religious Activities [Zongjiao huodong changsuo zhuyao 
jiaozhi renzhi bei'an banfa], issued 29 December 06; Measures for 
Putting on File Religious Personnel [Zongjiao jiaozhi renyuan bei'an 
banfa], issued 29 February 06. Measures Regarding Chinese Muslims 
Signing Up To Go Abroad on Pilgrimages (Trial Measures) [Zhongguo 
musilin chuguo chaojin baoming paidui banfa (shixing)], undated 
(estimated date 2006), available on the SARA Web site. See Section IV--
Tibet for an analysis of the Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism.
    \33\ Shuai and Li, Interpretation of the Regulation on Religious 
Affairs. This book is written by drafters of the Regulation on 
Religious Affairs. See p. 6 of the preface. The book includes a preface 
by State Administration for Religious Affairs (SARA) director Ye 
Xiaowen and is advertised on the SARA Web site. A Web search of the 
book's title, limited to Web sites with ``gov.cn'' in the Web address, 
found only three local governments reporting on having received or used 
the text. Web search conducted July 16, 2007. While the text clarifies 
some ambiguous provisions of the Regulation on Religious Affairs, it 
also leaves some ambiguities--such as the question of whether religions 
outside the five belief systems are recognized in practice by the 
central government--unanswered.
    \34\ Between March 1, 2005, when the national RRA entered into 
force, and September 2007, 11 provincial-level areas issued new or 
amended comprehensive regulations on religious affairs and made the 
texts available on legal databases and other Web sites. These 
regulations are: Shanghai Municipality Regulation on Religious Affairs 
[Shanghaishi zongjiao shiwu tiaoli], adopted 30 November 95, amended 21 
April 05; Henan Province Regulation on Religious Affairs [Henansheng 
zongjiao shiwu tiaoli], issued 30 July 05; Zhejiang Province Regulation 
on Religious Affairs [Zhejiangsheng zongjiao shiwu tiaoli], issued 6 
December 97, amended 29 March 06; Shanxi Province Regulation on 
Religious Affairs [Shanxisheng zongjiao shiwu tiaoli], issued 29 July 
05; Anhui Province Regulation on Religious Affairs [Anhuisheng zongjiao 
shiwu tiaoli], issued 15 October 99, amended 29 June 06 and 28 February 
07; Beijing Municipality Regulation on Religious Affairs [Beijingshi 
zongjiao shiwu tiaoli], issued 18 July 02, amended 28 July 06; 
Chongqing Municipality Regulation on Religious Affairs [Chongqingshi 
zongjiao shiwu tiaoli], issued 29 September 06; Hunan Province 
Regulation on Religious Affairs [Hunansheng zongjiao shiwu tiaoli], 
issued 30 September 06; Liaoning Province People's Congress Standing 
Committee Decision on Amending the Liaoning Province Regulation on 
Religious Affairs [Liaoningsheng renmin daibiao dahui changwu 
weiyuanhui guanyu xiugai ``Liaoningsheng zongjiao shiwu tiaoli'' de 
jueding], issued on 28 November 98 as the Liaoning Province Regulation 
on the Management of Religious Affairs, amended and name changed on 1 
December 06; Sichuan Province Regulation on Religious Affairs 
[Sichuansheng zongjiao shiwu tiaoli], issued on 9 May 00 as the Sichuan 
Province Regulation on the Management of Religious Affairs, amended and 
name changed on 30 November 06; and Tibet Autonomous Region 
Implementing Measures for the ``Regulation on Religious Affairs'' 
(Trial Measures) [Zizang zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa 
(shixing)], issued 19 September 06. In addition, the Hebei provincial 
government also amended its 2003 Regulation on Religious Affairs, 
according to a report from the Hebei Province Ethnic and Religious 
Affairs Department Web site, but a public copy appears to be 
unavailable. Hebei Province Ethnic and Religious Affairs Department 
(Online), ``Hebei Province Regulation on Religious Affairs Revised and 
Promulgated'' [``Hebeisheng zongjiao shiwu tiaoli'' xiuding bing 
gongbu], 14 February 07. The Anhui provincial government retained 
inconsistent provisions in its first amendments, in 2006. For an 
analysis of the Anhui amendments and other regulations, see ``Anhui 
Government Amends Provincial Religious Regulation,'' CECC China Human 
Rights and Rule of Law Update, October 2006, 10-11; ``Zhejiang and 
Other Provincial Governments Issue New Religious Regulations,'' CECC 
China Human Rights and Rule of Law Update, June 2006, 9-10; ``Beijing 
Municipality Amends Local Religious Regulation,'' CECC China Human 
Rights and Rule of Law Update, November 2006, 8-9; ``Chongqing 
Municipality and Hunan Province Issue New Religious Regulations,'' CECC 
Virtual Academy (Online), 4 January 07
    \35\ Article 79 of the Legislation Law says that national 
regulations have higher force than local ones, and Articles 64 and 88 
call for amending or canceling local regulations that conflict with 
national legal sources. PRC Legislation Law [Zhonghua renmin gongheguo 
lifafa], adopted 15 March 00. Nonetheless, out-of-date provisions 
remain within local-level legislation. For example, the Guangdong 
Province Regulation on the Administration of Religious Affairs retains 
a provision requiring yearly inspections of venues for religious 
activities in accordance with a national legal measure (banfa) on the 
topic, but subsequent legal developments have voided this legal 
guidance. See Guangdong Province Regulation on the Administration of 
Religious Affairs [Guangdongsheng shiwu guanli tiaoli], adopted 26 May 
00, art. 15. See also ``Beijing Municipality Amends Local Religious 
Regulation,'' CECC China Human Rights and Rule of Law Update, November 
2006, 8-9; and Shuai and Li, Interpretation of the Regulation on 
Religious Affairs, 93. According to this book of interpretations, the 
national RRA annuls an earlier measure requiring yearly inspections. 
This annulment is not explicit within the text of the RRA itself.
    \36\ Hunan Province Regulation on Religious Affairs, art. 48. See 
also ``Chongqing Municipality and Hunan Province Issue New Religious 
Regulations,'' CECC Virtual Academy (Online), 4 January 07.
    \37\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs,'' art. 36-40.
    \38\ See, e.g., ``Zhejiang and Other Provincial Governments Issue 
New Religious Regulations,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 9-10, for a comparison of regulations from four 
provincial-level areas.
    \39\ The central government has referred to the five religions as 
China's main religions, but in practice the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection. See, e.g., State Council Information 
Office, White Paper on Freedom of Religious Belief in China, October 
1997 (Online) (stating that the religions citizens ``mainly'' follow 
are Buddhism, Daoism, Islam, Catholicism, and Protestantism). Wording 
from this White Paper is posted as a statement of current policy on the 
Web sites of the United Front Work Department, the agency that oversees 
religious affairs within the Communist Party, and the State 
Administration for Religious Affairs (SARA). Some local regulations on 
religious affairs define religion in China to mean only these five 
categories. See, e.g., Guangdong Province Regulation on the 
Administration of Religious Affairs, art. 3, and Henan Province 
Regulation on Religious Affairs, art. 2. There is some limited 
tolerance outside this framework for some ethnic minority and ``folk'' 
religious practices. See text infra and see also Kim-Kwong Chan and 
Eric R. Carlson, Religious Freedom in China: Policy, Administration, 
and Regulation (Santa Barbara: Institute for the Study of American 
Religion, 2005), 9-10, 15-16. Some local governments have recognized 
the Orthodox church. See the discussion, infra, on Orthodoxy in China. 
Officials told a visiting U.S. delegation in August 2005 that they were 
considering at the national level whether to allow some other religious 
communities, including the Orthodox church, to register to establish 
organizations or religious activity venues, but no decisions in this 
area have been reported. U.S. Commission on International Religious 
Freedom (USCIRF), ``Policy Focus: China,'' 9 November 05, 4. See also 
``A Year After New Regulations, Religious Rights Still Restricted, 
Arrests, Closures, Crackdowns Continue,'' Human Rights Watch (Online), 
1 March 06 (reporting no decision on whether or not to recognize 
additional religions).
    \40\ See, e.g., RRA, art. 6 (requiring religious organizations to 
register in accordance with the Regulations on the Management of the 
Registration of Social Organizations); art. 8 (requiring an application 
to the State Administration for Religious Affairs (SARA) to establish 
an institute for religious learning); art. 13-15 (imposing an 
application procedure to register venues for religious activity); art. 
27 (requiring the appointment of religious personnel to be reported to 
the religious affairs bureau at or above the county level and requiring 
reporting the succession of living Buddhas for approval to governments 
at the level of a city divided into districts or higher, and requiring 
reporting for the record the appointment of Catholic bishops to SARA).
    \41\ These Party-led associations are sometimes also referred to as 
``patriotic religious associations.''
    \42\ For a description of the religious associations in Chinese 
sources, see Shuai and Li, Interpretation of the Regulation on 
Religious Affairs, 4-5.
    \43\ Authorities accused the monk of engaging in improper relations 
with lay practitioners and dismissed him on those alleged grounds. 
``Jiangxi Buddhist Master Accused of Being a Womanizer and Driven Out 
of Temple,'' Sing Tao Jih Pao, 25 August 06 (Open Source Center, 27 
August 06). ``Top Buddhist Officials Join in Persecution of Activist 
Monk,'' Human Rights in China (Online), 23 August 06.
    \44\ Human Rights Watch and Human Rights in China, ``Devastating 
Blows: Religious Repression of Uighurs in Xinjiang,'' April 2005, 49-
53, 55-57 (pagination follows ``text-only'' pdf download of this 
report).
    \45\ Some organizations operate without any registration and are 
tolerated by local authorities. A limited number of organizations have 
registered with local officials without affiliating with a Party-
controlled religious association. U.S. Department of State, 
International Religious Freedom Report--2006, China.
    \46\ See CECC, 2004 Annual Report, Section III(c) Freedom of 
Religion, for more information.
    \47\ Ministry of Public Security (Online), ``Liu Jinguo's Speech at 
Conference on National Work To Investigate and Deal with Rural 
Districts That Have Public Order in Disarray'' [Liu Jianguo zai quanguo 
paicha zhengzhi nongcun zhi'an hunluan diqu huiyi shang de fayan], 6 
July 07. The China Aid Association (CAA) reported detentions in the 
aftermath of the campaign's launch. ``Chinese Government Launched 
Nationwide Campaign against Uncontrolled Religious Activities; Massive 
Arrests Occurred in Inner Mongolia, Liaoning, Xinjiang, Jiangsu, Henan, 
Shandong, and Anhui,'' CAA (Online), 24 August 07.
    \48\ ``Our District's Work on the Administration of Abnormal 
Religious Activities Is Taking on a Desirable Posture'' [Woqu 
feizhengchang zongjiao huodong zhili gongzuo xingcheng lianghao 
taishi], Baoshan Ethnicities and Religion Net (Online), 20 July 07.
    \49\ See, e.g., RRA, art. 4 and White Paper on Freedom of Religious 
Belief in China, for more information on these principles.
    \50\ ``PRC Public Security Minister Zhou Yongkang Urges Crackdown 
on `Hostile Forces,''' Agence France-Presse, 20 March 07 (Open Source 
Center, 20 March 07). Zhou made a similar statement again in September, 
calling for increased security specifically for the 17th Party 
Congress, scheduled for October 2007. Shi Jiangtao, ``Crackdown by 
Police Ahead of Party Congress,'' South China Morning Post (Online), 7 
September 07. After Western media reported that foreign missionaries 
planned to increase their presence during the Olympics, Party-led China 
Christian Council head Cao Shengjie told foreign groups to adhere to 
Chinese rules and not engage in religious activities without invitation 
from the Party-led Protestant church. Kristine Kwok, ``Olympic 
Missionaries Warned To Follow Rules,'' South China Morning Post 
(Online), 29 May 07; ``Thousands Planning to Bring the Gospel to China 
During the Olympic Games,'' AsiaNews (Online), 21 May 07.
    \51\ ``Government Intervenes into a Three-Self Church in Shanxi 
Province, Pastor Evicted,'' CAA (Online), 9 August 06.
    \52\ ``Over 100 Foreign Missionaries Expelled or Forced To Leave by 
Chinese Government Secret Campaign,'' CAA (Online), 10 July 07. For 
additional reporting on this news, see, e.g., Alexa Olesen, ``Christian 
Aid Group Says China Kicking Out Foreign Missionaries Ahead of 2008 
Olympics,'' Associated Press (via Nexis), 10 July 07 (citing a U.S. 
Embassy spokesperson who said her office had ``heard some reports of 
deportations.'')
    \53\ Detailed Implementing Rules for the Provisions on the 
Management of the Religious Activities of Foreigners within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, art. 17.
    \54\ Ministry of Foreign Affairs (Online), ``MFA Spokesperson Liu 
Jianchao Answers Reporters Questions'' [Waijiaobu fayanren Liu Jianchao 
huida jizhe tiwen], 16 March 05.
    \55\ See, e.g., Fujian Province Implementing Measures on the Law on 
the Protection of Minors [Fujiansheng shishi ``Zhonghua renmin 
gongheguo weichengnianren baohufa'' banfa], issued 21 November 94, 
amended 25 October 97, art. 33; Inner Mongolia Autonomous Region (IMAR) 
Implementing Measures on the Management of Venues for Religious 
Activity [Neimenggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 13. While the national regulation 
addressed in the IMAR measures was annulled in 2005, the IMAR measures 
appear to remain in force.
    \56\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \57\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices --2006, China 
(includes Tibet, Hong Kong, and Macau) (Online), 6 March 07.
    \58\ Elisabeth Alles, ``Muslim Religious Education in China,'' 45 
Perspectives Chinoises (January-February 2003) (Online); Will Religion 
Flourish Under China's New Leadership? Staff Roundtable of the 
Congressional-Executive Commission on China, 24 July 03, Testimony of 
Dr. Jacqueline M. Armijo-Hussein, Assistant Professor, Department of 
Religious Studies, Stanford University.
    \59\ See, e.g., Sara L.M. Davis, ``Dance, Or Else: China's 
`Simplifying Project,''' China Rights Forum 2006, No. 4--Ethnic Groups 
in China, 20 December 06.
    \60\ See CECC 2004 Annual Report, 37, for more details on these 
campaigns.
    \61\ Ye Xiaowen, ``Correctly Understanding and Handling the 
Religious Relationship in the Socialist Society--Studying Comrade Hu 
Jintao's Important Speech at the National United Front Work 
Conference.''
    \62\ RRA, art. 34.
    \63\ See, e.g., Guangdong Province Ethnic and Religious Affairs 
Commission (Online), ``Shantou City Religious Circles Launch Compassion 
Activities to Help Haojiang District's Dusheng Village Resume Work 
After Disaster'' [Shantoushi zongjiaojie kaizhan aixin huodong bangzhu 
haojiangqu dushengcun zuohao zaihou huifu gongzuo], 12 June 06; Hebei 
Province Ethnic and Religious Affairs Department (Online), ``Hebei 
Province's Two Catholic Associations Establish the `Hebei Promote-
Virtue Charity Service Center''' [Hebeisheng tianzhujiao lianghui 
chengli ``Hebei jin de gongyi shiye fuwu zhongxin''], 14 July 06.
    \64\ Susan K. McCarthy, ``The Three Represents and the Four Noble 
Truths: Faith-Based Civil Society Organizations in Contemporary 
China,'' Paper submitted for the 2007 annual meeting of the Association 
of Asian Studies, March 22-25, Boston, 9-10. [On File.]
    \65\ See, e.g., ``Muslim Hands Reach Out to Gansu,'' China 
Development Brief (Online), 6 May 05; ``MH in China: 70 Kids Have Cleft 
Lip Correction,'' Muslim Hands Feedback Report 2004 (Online), last 
visited 6 October 07; Correspondence to the CECC, 9 May 06; Elaine 
Chan, ``Beyond Parallel,'' South China Morning Post, 30 September 06.
    \66\ See Section II--Civil Society, infra, for more information.
    \67\ See, e.g., Jay Dautcher, ``Public Health and Social 
Pathologies in Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. 
S. Frederick Starr (Armonk, New York: M.E. Sharpe, 2004), 285-6.
    \68\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \69\ CECC, 2005 Annual Report, 49.
    \70\ ``Underground Bishop Jia Zhiguo Is Arrested Again,'' Cardinal 
Kung Foundation (Online), 6 June 07 ``Msgr. Jia Zhiguo, Underground 
Bishop Is Freed,'' AsiaNews, reprinted on the CAA Web site, 23 June 07.
    \71\ ``Mgr Julius Jia Zhiguo, Who Wanted To Disseminate the Pope's 
Letter, Is Arrested,'' AsiaNews (Online), 23 August 07.
    \72\ ``Underground Bishop Jia Zhiguo Is Arrested Again,'' Cardinal 
Kung Foundation. See the CECC Political Prisoner Database for more 
information.
    \73\ CECC, 2006 Annual Report, 87.
    \74\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \75\ ``Officials Assault Nuns Over Land Dispute in Shaanxi 
Province,'' CECC China Human Rights and Rule of Law Update, March 2006, 
11; ``Registered Catholics Claim Property in Tianjin,'' CECC China 
Human Rights and Rule of Law Update, March 2006, 11-12; ``Nuns and 
Alleged Assailants Reach Out-of-Court Settlement in Xi'an Beating 
Case,'' CECC China Human Rights and Rule of Law Update, December 2006, 
9.
    \76\ ``Chinese Government Appoints Bishop Without Holy See 
Approval,'' CECC China Human Rights and Rule of Law Update, December 
2006, 5-6. Wang's ordination followed the CPA's ordinations in April 
and May 2006 of other bishops who also lacked Holy See approval.
    \77\ ``Guizhou Scheduled To Hold First Episcopal Ordination Since 
Papal Letter,'' Union of Catholc Asian News (UCAN) (Online), 3 
September 07; ``Vatican Approval for Guiyang Episcopal Ordination Made 
Public,'' AsiaNews (Online), 10 September 07.
    \78\ ``Beijing Ordination Had Papal Approval,'' UCAN (Online), 22 
September 07; ``New Bishop Vows To Lead Catholics Contributing to a 
Harmonious Society,'' UCAN (Online), 21 September 07. Holy See approval 
was not openly made known until after the ordination. Earlier articles 
on Li's nomination differed on whether Li had received approval. 
``China Nominates Bishop, Threatening Vatican Rift,'' Reuters (Online), 
18 July 07. The Vatican has expressed some support for Li, whom outside 
media has suggested is less entrenched in official Chinese Catholic 
institutions than his predecessor, Fu Tieshan. ``The New Bishop of 
Beijing is Elected,'' AsiaNews (Online), 18 July 07. ``Vatican Welcomes 
New China Bishop,'' BBC (Online), 19 July 07. ``Beijing Getting Ready 
for the Ordination of Mgr Li Shan, CCPA Seizes Bishop's Residence,'' 
AsiaNews (Online), 17 September 07. For Chinese reporting on the 
appointment, see ``Li Shan Picked as Bishop of Beijing Diocese'' [Li 
Shan dangxuan tianzhujiao Beijing jiaoqu zhujiao], China Ethnicity News 
(Online), 3 August 07.
    \79\ ``Letter of the Holy Father Pope Benedict XVI to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China,'' Vatican Web site, 27 May 07. Though 
dated May 27, the Holy See released the letter on June 30. ``More on 
Pope's Letter to China Over Religious Freedom, Appointment of 
Bishops,'' Agence France-Presse, 30 June 07 (Open Source Center, 30 
June 07).
    \80\ ``Beijing Removes Papal Letter to Chinese Church from Web,'' 
AsiaNews (Online), 3 July 07.
    \81\ ``Priests Arrested and Put into Solitary Confinement: the 
Governments Answer to the Pope's Letter,'' AsiaNews (Online), 2 August 
07.
    \82\ Yang Yingchun, ``Ismail Tiliwaldi, While Speaking at an 
Autonomous Region-Wide Religion Work Meeting, Calls for Stronger 
Management Over Pilgrimage and the `Two Religions' To Safeguard the 
Masses' Interest,'' Xinjiang Daily, 11 July 07 (Open Source Center, 13 
July 07); ``Autonomous Prefecture's Religion Meeting Stresses 
Strengthening Management of Religion, Safeguarding Social Stability'' 
[Zizhizhou zongjiao huiyi qiangdiao jiaqiang zongjiao guanli weihu 
shehui wending], Changji Evening News, reprinted on the Changji Hui 
Autonomous Prefecture Government Web site, 14 August 07.
    \83\ ``Two Priests Detained in Wenzhou After Arrest on Return from 
Europe,'' UCAN, 3 October 06; ```Underground' Chinese Catholic Priests 
Charged, Likely To Face Trial,'' UCAN (Online), 26 October 06. ``Two 
Underground Priests from Wenzhou Soon To Be Freed,'' AsiaNews, 17 May 
07; ``Two Underground Priests, Arrested After Pilgrimage, Sentenced Six 
Months After Arrest,'' UCAN (Online), 16 May 07. Authorities released 
Shao from prison in May 2007 to obtain medical treatment. ``Jailed 
Wenzhou Priest Released Provisionally for Medical Treatment,'' UCAN, 30 
May 07. Authorities released Jiang in August. ``Second Of Two Jailed 
Wenzhou Priests Released, Diagnosed With Heart Conditions,'' UCAN, 29 
August 07. See the CECC Political Prisoner Database for more 
information. Jiang Surang is also known by the name Jiang Sunian.
    \84\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \85\ Human Rights Watch, ``Devastating Blows,'' 73-74. The report 
cites official data published in 2001.
    \86\ Ibid., 69.
    \87\ ``Teacher and 37 Students Detained for Sudying [sic] Koran in 
China: Rights Group'' Agence France-Presse, 15 August 05 (Open Source 
Center, 15 August 05).
    \88\ ``Three Detained in East Turkistan for `Illegal' Religious 
Text,'' Uyghur Human Rights Project (Online), 3 August 05.
    \89\ See, e.g., ``Xinjiang Government Continues Restrictions on 
Mosque Attendance,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 8. XUAR regulations forbid parents from allowing children 
to engage in religious activities, and mosques have restricted 
children's entry. The U.S. Department of State noted in its 2006 
Country Reports on Human Rights Practices for China, however, that such 
restrictions were not uniformly enforced in practice. U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China.
    \90\ Human Rights Watch, ``Devastating Blows,'' 55-56.
    \91\ USCIRF, ``Policy Focus: China,'' 6.
    \92\ RRA, art. 11, 43.
    \93\ ``Islamic Congress Establishes Hajj Office, Issues New 
Rules,'' CECC Human Rights and Rule of Law Update, June 2006, 12-13.
    \94\ ``Government Increases Controls Over Muslim Pilgrimages,'' 
CECC Human Rights and Rule of Law Update, December 2006, 20; Circular 
of Provisions Regarding Organizing and Carrying Out Secondary 
Pilgrimage Activities [Guanyu zuzhi kaizhan fuchao huodong ruogan 
guiding de tongzhi], August 2006.
    \95\ U.S. Department of State, International Religious Freedom 
Report--2007, China (noting reasons why some Uighur Muslims in 
particular have avoided participating in official trips).
    \96\ Jackie Armijo, ``Islamic Education in China,'' 9 Harvard Asia 
Quarterly, (Winter 2006) (Online).
    \97\ Cheng Lixin, ``Wang Lequan, Speaking at the Feedback Meeting 
of the United Front and Religious Affairs Investigation and Study Team, 
Emphasizes the Need To Strengthen Management of Pilgrimage Activity To 
Safeguard the Masses Interests,'' Xinjiang Daily, 19 June 07 (Open 
Source Center, 25 June 07); ``China Confiscates Muslims' Passports,'' 
Radio Free Asia (Online), 27 June 07; ``Activist: Members of Muslim 
Minority Group in China Forced To Surrender Their Passports,'' 
Associated Press, reprinted in the International Herald Tribune, 20 
July 07.
    \98\ Yang, ``Ismail Tiliwaldi, While Speaking at an Autonomous 
Region-Wide Religion Work Meeting, Calls for Stronger Management Over 
Pilgrimage and the `Two Religions' To Safeguard the Masses' Interest.''
    \99\ ``Over 70,000 Illegal Publications `Smashed to Dust''' [7 wan 
duo ce feifa chubanwu ``fenshensuigu''], Xinjiang Legal Daily (Online), 
6 August 07.
    \100\ ``Xinjiang Government Seizes, Confiscates Political and 
Religious Publications,'' CECC Human Rights and Rule of Law Update, 
July 2006, 7-8.
    \101\ ``Xinjiang Uighur Autonomous Region Destroys 29 Tons of 
Illegal Books'' [Xinjiang weiwuer zizhiqu xiaohui 29 dun feifa tushu], 
Tianshan Net (Online), 16 March 06.
    \102\ Xinjiang Uighur Autonomous Region Implementing Measures of 
the Law on the Protection of Minors [Xinjiang weiwuer zizhiqu shishi 
``Weichengnianren baohufa'' banfa], issued 25 September 93, art. 14. No 
other provincial or national regulation on minors or on religion 
contains this precise provision. Devastating Blows, 58.
    \103\ ``Local Governments in Xinjiang Continue Religious Repression 
During Ramadan,'' CECC Virtual Academy, 12 December 06. Some local 
governments also extended these campaigns to teachers.
    \104\ Kashgar Government (Online), ``Yopurgha County Implements 
`Mandatory Visits System' Among Students in Elementary and Secondary 
Schools,'' [Yuepuhuxian zai zhongxiaoxuesheng zhong shixing 
``bifangzhi''], 11 October 06.
    \105\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \106\ The document says that meetings that are ``purely'' 
gatherings of family members within the home should be placed under 
normal management, and non-family gatherings that are large in scope 
and disruptive should be stopped and participants urged to go to 
approved sites of worship. Gatherings with elements of cult practices 
or foreign infiltration should be dispelled and if necessary subject to 
penalties. ``Our District's Work on the Administration of Abnormal 
Religious Activities Is Taking on a Desirable Posture'' [Woqu 
feizhengchang zongjiao huodong zhili gongzuo xingcheng lianghao 
taishi], Baoshan Ethnicities and Religion Net (Online), 20 July 07.
    \107\ ``Annual Report on Persecution of Chinese House Churches by 
Province from January 2006 to December 2006,'' CAA (Online), January 
2007, 3.
    \108\ CAA noted that while church members are often released after 
interrogation, authorities have held church leaders for longer periods, 
in some cases imposing prison sentences. Ibid.,19.
    \109\ ``Beijing House Church Activist Hua Huiqi and His Mother 
Attacked and Detained by Police,'' CAA (Online), 27 January 07. See the 
CECC Political Prisoner Database for additional information.
    \110\ ``Beijing House Church Activist Hua Huiqi Sentenced for 6 
Months Secretly,'' CAA (Online), 4 June 07; ``House Church Christian 
Activist Hua Huiqi and Mr. Qi Zhiyong Were Removed from Home Before US 
Presidential Visit,'' CAA (Online), 21 November 05; ``Activist's Mother 
`Held Hostage' for Information,'' Human Rights In China (HRIC) 
(Online), 17 August 07; ``Elderly Activist Denied Medical Parole,'' 
HRIC (Online), 13 September 07. See the CECC Political Prisoner 
Database for more information.
    \111\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA, reprinted in Christian News Wire, 3 October 07.
    \112\ See the CECC Political Prisoner Database for more 
information. See also ``UN Petition Submitted for Jailed Ailing Church 
Leader; Medical Parole Appeal Filed by Family Members,'' CAA (Online), 
12 July 06. Gong's accusers say they were tortured into signing 
allegations against Gong. Authorities originally charged Gong with 
using a cult to undermine the implementation of the law, along with 
premeditated assault, and rape, but the cult charges were later 
dropped. Examples of cult activity included carrying out unauthorized 
missionary activities and publishing and distributing a church 
periodical.
    \113\ ``Beijing House Church Activist Liu Fenggang Released,'' CAA 
(Online), 7 February 07.
    \114\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA.
    \115\ White Paper on Freedom of Religious Belief in China.
    \116\ ``Three House Church Buildings in Zhejiang Facing Imminent 
Destruction by Government,'' CAA (Online), 14 July 07.
    \117\ ``Basic People's Court of Xiaoshan District, Hangzhou City, 
Criminal Judgment'' [Hangzhou xiaoshanqu renminfayuan xingshi 
panjueshu], 22 December 06, reprinted on the CAA Web site, 15 January 
07.
    \118\ ``Annual Report on Persecution of Chinese House Churches, '' 
CAA, 3-4.
    \119\ ``Church Property in Gansu Occupied by the Government, 300 
Christians Protest by Sitting Demonstration; 3 Singapore Christians 
Arrested & Released in Xinjiang, 5 Local Believers Still in 
Detention,'' CAA (Online), 31 October 06. Government officials 
threatened to withhold retirement benefits to church members and 
reportedly used violence against the demonstrators. The group 
reportedly reached a compromise with authorities. ``Annual Report on 
Persecution of Chinese House Churches,'' CAA, 19.
    \120\ See the CECC Political Prisoner Database for more information 
about these cases. CAA reported in September 2007 that authorities 
arrested Zhou Heng, a house church leader in the Xinjiang Uighur 
Autonomous Region, on August 31 after he received a shipment of Bibles 
reported to have been donated by an overseas church. Authorities 
accused him of illegally operating a business. ``House Church Leader in 
Xinjiang Formally Arrested for Receiving Bibles and Abused in Jail,'' 
CAA (Online), 5 September 07. In March 2007, CAA reported that 
authorities arrested unregistered church leader Chen Jiaxi in January 
2007 for distributing religious literature, on the grounds he was 
illegally managing a business. CAA reported that Chen was expected to 
stand trial soon but has not reported further information on the case. 
``House Church Leaders Arrested in Liaoning and Anhui Province,'' CAA 
(Online), 31 March 07. In 2006, the CAA reported that authorities 
levied a similar charge on pastor Liu Yuhua after he printed and 
distributed religious literature. ``Multiple Arrests of Protestants 
Occurred in Shandong and Jiangsu; One South Korea Missionary Expelled 
from China; Prominent Chinese Legal Scholar Banned to Go Abroad,'' CAA 
(Online), 16 May 06.
    \121\ ``Renowned Beijing Church Leader Cai Zhuohua Released After 
Three Years Imprisonment for Distributing Bibles; Forced Labor for 
Olympics Products Imposed,'' CAA (Online), 14 September 07.
    \122\ ``Chinese Authorities Release House Church Filmmaker After 
140 Days in Custody,'' CECC Human Rights and Rule of Law Update, 
September 2006, 9; ``Journalist Arrested for Posting Reports About 
Crackdown on Christians,'' Reporters Without Borders (Online), 11 
August 06.
    \123\ ``House Church Members Successfully Fight Detentions For 
Unauthorized Worship,'' CECC Virtual Academy, 19 December 06.
    \124\ The church leaders have since filed lawsuits against the 
government. According to an April report from the China Aid 
Association, Dong Quanyu and Li Huage of Henan province await a 
decision on whether their case will be heard. In April 2007, the 
People's Court of Duolun County, Inner Mongolia Autonomous Region 
accepted Zhi Ruiping's case for an upcoming trial. ``Released Church 
Leaders in Henan and Inner Mongolia File Lawsuit Against Abusers in the 
Government,'' CAA (Online), 18 April 07.
    \125\ See the subsection on ``Government Persecution of Falun 
Gong,'' infra, for more information.
    \126\ ``Thirty-Three Chinese and Three Korea[n] Pastors Released in 
Henan After International Religious Pressure; One Sentenced for 10 Days 
Detention,'' CAA (Online), 7 March 07.
    \127\ ``Confiscated Church Properties in Jiangsu Returned after 
International Pressure,'' CAA (Online), 11 May 07.
    \128\ ``Delegation of Chinese Protestants Attends International 
Mission Conference,'' CECC Human Rights and Rule of Law Update, June 
2005, 6.
    \129\ ``House Church Lawyers Promote Religious Freedom Through the 
Rule of Law,'' CECC Human Rights and Rule of Law Update, July 2006, 3.
    \130\ Yang, ``Ismail Tiliwaldi, While Speaking at an Autonomous 
Region-Wide Religion Work Meeting, Calls for Stronger Management Over 
Pilgrimage and the `Two Religions' To Safeguard the Masses' Interest.'' 
This call was reiterated by local authorities in Changji Hui Autonomous 
Prefecture in August. ``Autonomous Prefecture's Religion Meeting 
Stresses Strengthening Management of Religion, Safeguarding Social 
Stability,'' Changji Evening News.
    \131\ See, e.g., ``Massive Arrest of Chinese and American Christian 
Leaders in Xinjiang,'' CAA (Online), 24 April 07; ``3 Singapore 
Christians Arrested and Released in Xinjiang, 5 Local Believers Still 
in Detention,'' CAA (Online), 31 October 06; ``35 Arrested Christians 
in Xinjiang Released after Interrogation; American Korean Pastor Put 
Under Surveillance in a Hotel,'' CAA (Online), 27 October 06; ``On 
Christmas Day, Christmas Services Stopped in Xinjiang; House Church 
Leaders Arrested; Persecution Against Beaten Christian Businessman 
Intensified,'' CAA (Online), 27 December 05.
    \132\ ``Over 100 Foreign Missionaries Expelled or Forced To Leave 
by Chinese Government Secret Campaign,'' CAA (Online), 10 July 07.
    \133\ ``China Sentences Underground Pastor to 7.5 Years in 
Prison,'' Agence France-Presse (Online), 12 July 06. See the CECC 
Political Prisoner Database for more information.
    \134\ Timothy Chow, ``Chinese House Church Historian Denied ID 
Card,'' Compass Direct News, reprinted on the CAA Web site, 17 February 
06.
    \135\ U.S. Department of State, International Religious Freedom 
Report--2007, China.
    \136\ ``Head of Religious Association: Religious Adherents Not 
Arrested Due to Their Faith,'' CECC Virtual Academy (Online), 26 June 
06; ``Falun Gong Practitioners To Be Punished Under New Administration 
Punishment Law,'' CECC China Human Rights and Rule of Law Update, May 
2006, 6.
    \137\ See the CECC Political Prisoner Database for more 
information.
    \138\ See the CECC Political Prisoner Database for more 
information.
    \139\ See the CECC Political Prisoner Database for more 
information.
    \140\ See China Human Rights Lawyers Concern Group (Online), 
``Demand Immediate Release of Beijing Human Rights Lawyer Gao 
Zhisheng,'' 27 September 07. For more information about Gao's open 
letter, which called on the Congress to take action against the Chinese 
government's human rights abuses, see Human Rights Torch Relay 
(Online), ``Gao Zhisheng's letter to the Senate and the Congress of the 
United States,'' 12 September 07; Bill Gertz, ``Chinese dissident urges 
boycott of Olympics,'' Washington Times (Online), 21 September 07.
    \141\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA; ``Amnesty International's Urgent Appeal for 
Beijing Human Rights Lawyer Li Heping, Who Was Abducted and 
Assaulted,'' Amnesty International, reprinted in CAA (Online), 4 
October 07.
    \142\ ``House Church Members Successfully Fight Detentions For 
Unauthorized Worship,'' CECC Virtual Academy, 19 December 06; ``Court 
Officials Refuse Falun Gong Practitioner's Appeal of RTL Sentence,'' 
CECC Virtual Academy, 3 November 06.
    \143\ See the CECC Political Prisoner Database for more 
information.
    \144\ See, e.g., ``Dachang Demolishes Illegal Small Temple 
According to Law'' [Dachang zhen yifa chaichu yichu feifa xiao miao], 
Shanghai Baoshan Ethnicity and Religion Net (Online), 1 September 06; 
Mianyang City Bureau of Ethnic and Religious Affairs (Online), ``Govern 
According to the Law for Good Results, Strength To Demolish `Illegal 
Small Temples' Great,'' [Yifa zhili xiaoguo hao, chai ``feifa xiao 
miao'' lidu da], 08 June 06.
    \145\ See, e.g., ``Investigative Report on the Situation of 
Unregistered Small Temples and Convents'' [Weijing zhengfu dengji de 
xiao miao xiao an qingkuang de diaoyan baogao], Xiaogang Information 
Net (sponsored by the Beilun District People's Government Xiaogang 
Neighborhood Committee Office) (Online), 12 September 06; ``Some 
Reflections on Rural Religious Work in a New Period'' [Xin shiqi nogcun 
zongjiao gongzuo de jidian sikao], Yixing United Front Web Site 
(Online), 13 June 05.
    \146\ State Administration for Religious Affairs (Online), ``Forum 
for Religious Personages Opens in Beijing at Second-year Anniversary of 
the Implementation of the `Regulation on Religious Affairs''' 
[``Zongjiao shiwu tiaoli'' shishi liang zhou nian zongjiaojie renshi 
zuotanhui zai jing zhaokai], 3 March 07.
    \147\ See, e.g., ``China Exclusive: China Supports Buddhism in 
Building Harmonious World,'' Xinhua, 12 April 06 (Open Source Center, 
12 April 06).
    \148\ Jim Yardley, ``In Crackdown, China Shuts Buddhist Site and 
Seizes Catholic Priests,'' New York Times, 19 August 04.
    \149\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \150\ Among provincial-level areas, the Heilongjiang Regulation on 
the Management of Religious Affairs and Inner Mongolia Autonomous 
Region Implementing Measures for the Management of Venues for Religious 
Activity recognize the Orthodox Church. Heilongjiang Regulation on the 
Management of Religious Affairs [Heilongjiangsheng zongjiao shiwu 
guanli tiaoli], issued 12 June 97, art. 2; Inner Mongolia Autonomous 
Region Implementing Measures for the Management of Venues for Religious 
Activity [Nei menggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 2.
    \151\ For more information see ``Religious Freedom for China's 
Orthodox Christians'' in the CECC 2005 and 2006 Annual Reports.
    \152\ In addition to work in these areas, it also oversees anti-
cult work and addresses ``foreign infiltration.'' The Web site of the 
State Administration for Religious Affairs (SARA) includes a 
description of this office but does not indicate when it was 
established. The curriculum vitae for a SARA staff members notes he was 
made head of this department in December 2004. The Hong Kong newspaper 
Ta Kung Pao reported the establishment of this department in September 
2005. Chan and Carlson write that authorities decided at a January 2004 
conference to establish a SARA department focused on folk beliefs. Chan 
and Carlson, 15-16. State Administration for Religious Affairs 
(Online), ``Fourth Work Department'' [Yewu sisi], last visited 6 
October 07; State Administration for Religious Affairs (Online), ``CV 
of [SARA Official] Jiang Jianyong'' [Jiang Jianyong jianli], last 
viewed 6 October 07. ``Religious Affairs Bureau Establishes Special 
Department To Manage Folk Religions'' [Zongjiaoju she zhuansi guanli 
minjian zongjiao], Ta Kung Pao (Online), 20 September 05.
    \153\ Hunan Province Regulation on Religious Affairs, art. 48. See 
also ``Chongqing Municipality and Hunan Province Issue New Religious 
Regulations,'' CECC Virtual Academy (Online), 4 January 07. Some 
localities outside Hunan province also regulate folk beliefs. See, 
e.g., ``Xiamen Exchanges Experiences on Management of Venues for Folk 
Beliefs'' [Xiamen jiaoliu minjian xinyang huodong changsuo guanli 
jingyan], China Ethnicities News (Online), 6 February 07; ``Yanping 
District, Jian'ou City Standardizes Financial Management of Venues for 
Folk Beliefs,'' [Jian'ou shi yanping qu guifan minjian xinyang changsuo 
caiwu guanli], China Ethnicities News (Online), 13 February 07.
    \154\ ``Chongqing Municipality and Hunan Province Issue New 
Religious Regulations,'' CECC Virtual Academy (Online), 4 January 07.
    \155\ Hunan Provincial Religious Affairs Bureau (Online), ``State 
Administration for Religious Affairs Comes To Hunan To Investigate and 
Research Our Province's Present Conditions for Folk Beliefs and 
Experimental Management Situation'' [Guojia zongjiaoju lai xiang 
diaoyan wo sheng minjian xinyang xianzhuang he shidian guanli 
qingkuang], last viewed 6 October 07 (posted on the Hunan Provincial 
Religious Affairs Bureau Web site in 2007, in apparent reference to 
events in August 2006). See also ``Popular Folk Beliefs and Religion'' 
[Minjian xinyang yu zongjiao], China Religion, September 2004 
(indicating, within an official publication under SARA, some support 
for protecting folk beliefs but also subjecting them to state control).
    \156\ State Administration for Religious Affairs, ``Forum for 
Religious Personages Opens in Beijing at Second-year Anniversary of the 
Implementation of the Regulation on Religious Affairs;'' ``Some 
Reflections on Rural Religious Work in a New Period,'' Yixing United 
Front Web Site; U.S. Department of State, International Religious 
Freedom Report--2006, China. Some activities related to 
``superstitions'' or ``feudal superstitions'' are penalized under the 
Criminal Law and administrative regulations. See, e.g., the PRC 
Criminal Law, enacted 1 July 79, amended 14 March 97, art. 300, and the 
PRC Public Security Administration Punishment Law, enacted 28 August 
05, art. 27(1).

                                 <all>

</pre></body></html>
